   DEPARTMENT OF HEALTH & HUMAN SERVICES                             OFFICE OF INSPECTOR GENERAL

                                                                     Office of Audit Services, Region III
                                                                     Public Ledger Building, Suite 316
                                                                     150 S. Independence Mall West
                                                                     Philadelphia, PA 19106-3499

June 23, 2010

Report Number: A-03-09-00022

Mr. Ernest L. Lopez
Chief Financial Officer
TrailBlazer Health Enterprises, LLC
8330 LBJ Freeway
Dallas, TX 75243

Dear Mr. Lopez:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Part B Carrier Payments for Neulasta Injections in
Virginia for Calendar Years 2004 Through 2007. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(215) 861-4470, or contact Bernard Siegel, Audit Manager, at (215) 861-4484 or through email
at Bernard.Siegel@oig.hhs.gov. Please refer to report number A-03-09-00022 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Ernest L. Lopez


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  MEDICARE PART B CARRIER
       PAYMENTS FOR
   NEULASTA INJECTIONS IN
        VIRGINIA FOR
    CALENDAR YEARS 2004
       THROUGH 2007




                      Daniel R. Levinson
                       Inspector General

                          June 2010
                        A-03-09-00022
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Prior to October 1, 2005, section 1842(a) of the Act authorized CMS to contract with carriers.
For purposes of this report, the term “Medicare contractor” means the fiscal intermediary,
carrier, or Medicare administrative contractor, whichever is applicable.

Medicare contractors process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers). Medicare contractors also review provider records to ensure
proper payment and assist in applying safeguards against unnecessary utilization of services. To
process providers’ Part B claims, Medicare contractors use the Medicare Multi-Carrier System
and CMS’s Common Working File. These systems can detect certain improper payments during
prepayment validation.

Individuals receiving chemotherapy often suffer from a low white blood cell count. Physicians
inject patients with pegfilgrastim (Neulasta), usually in 6-milligram doses, to stimulate bone
marrow and promote the growth of white blood cells. Prior to January 1, 2004, CMS assigned
Healthcare Common Procedure Coding System (HCPCS) code Q4053 to Neulasta injections and
defined one unit of service as 1 milligram. On January 1, 2004, CMS changed the HCPCS code
for Neulasta to J2505 and defined one unit of service as 6 milligrams, which represented a
standard dose.

TrailBlazer Health Enterprises, LLC (TrailBlazer), was the Medicare Part B carrier for Virginia.
During calendar years (CY) 2004 through 2007, TrailBlazer processed and paid almost
65 million Part B claims, of which 22,612 claims included Neulasta injections in Virginia. At
the time of our audit, CMS had not selected the Medicare administrative contractor for Virginia.

OBJECTIVE

Our objective was to determine whether Medicare payments made by TrailBlazer for Neulasta
injections in Virginia were appropriate.

SUMMARY OF FINDING

Medicare payments made by TrailBlazer for Neulasta injections in Virginia were generally
appropriate. However, TrailBlazer paid one provider $3,304 for one payment when it should
have paid $1,711, an overpayment of $1,593. (After we had identified the error, TrailBlazer
indicated that the provider submitted a revised claim for adjustment and requested an offset of
the overpayment amount against a current payment.)

TrailBlazer made the overpayment because the provider incorrectly claimed excessive units of
service on one claim.



                                                i
RECOMMENDATIONS

We recommend that TrailBlazer:

   •   verify that it has recovered the $1,593 overpayment and

   •   consider including its Neulasta edit in the “Medically Unlikely Edits.”

TRAILBLAZER COMMENTS

TrailBlazer concurred with the finding and recommendations. As a result of the audit,
TrailBlazer recovered the overpayments totaling $1,593 plus $14.94 interest on November 6,
2009. In addition, beginning July 2010, Neulasta will be subject to CMS’s “Medically Unlikely
Edits” that will deny Neulasta services when the billed quantity exceeds the maximum unit field
of the edit. TrailBlazer’s comments are included in the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Medicare Part B Contractors .................................................................................1
              “Medically Unlikely Edits”...................................................................................1
              Payment for Neulasta ............................................................................................2
              TrailBlazer Health Enterprises, LLC ....................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope .....................................................................................................................2
               Methodology .........................................................................................................3

FINDING AND RECOMMENDATIONS ................................................................................4

          MEDICARE REQUIREMENTS ......................................................................................4

          EXCESSIVE UNITS OF SERVICE ................................................................................4

          TRAILBLAZER SYSTEM EDITS ..................................................................................4

          RECOMMENDATIONS ..................................................................................................5

          TRAILBLAZER COMMENTS........................................................................................5

APPENDIX

          TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS




                                                                    iii
                                                INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Part B Contractors

Prior to October 1, 2005, section 1842(a) of the Act authorized CMS to contract with carriers. 1
Medicare contractors process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers). Medicare contractors also review provider records to ensure
proper payment and assist in applying safeguards against unnecessary utilization of services. To
process providers’ Part B claims, Medicare contractors use the Medicare Multi-Carrier System
and CMS’s Common Working File. These systems can detect certain improper payments during
prepayment validation.

CMS guidance requires Medicare contractors to pay for certain drugs based on the published
average sales price. 2 CMS guidance also requires providers to bill accurately and to report units
of service as the number of times the provider performed a service or procedure. During CYs
2004 through 2007, providers nationwide submitted approximately 3.2 billion Part B claims,
totaling over $294 billion, to Medicare contractors. Of these, over 1 million claims included
approximately $1.7 billion for pegfilgrastim (Neulasta 3) injections.

“Medically Unlikely Edits”

In January 2007, during our audit period, CMS required Medicare contractors to implement
units-of-service edits referred to as “medically unlikely edits.” CMS designed these edits to
detect and deny unlikely Medicare claims on a prepayment basis. According to the CMS
Medicare Program Integrity Manual, Pub. No. 100-08, Transmittal 178, Change Request 5402, a
“medically unlikely edit” tests claim lines for the same beneficiary, procedure code, date of
service, and billing provider against a specified number of units of service. Medicare contractors
must deny the entire claim line when the units of service billed exceed the specified number.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
between October 2005 and October 2011. Most, but not all, of the Medicare administrative contractors are fully
operational; for jurisdictions where the Medicare administrative contractors are not fully operational, fiscal
intermediaries and carriers continue to process claims. For purposes of the report, the term “Medicare contractor”
means fiscal intermediary, carrier, or Medicare administrative contractor, whichever is applicable.
2
  In accordance with 42 CFR § 414.707(a)(1), the payment allowance limit in calendar year (CY) 2004 was
85 percent of the average wholesale price. However, beginning January 1, 2005, 42 CFR § 414.904(a) established
the payment allowance limit as 106 percent of the average sales price.
3
    Neulasta is Amgen’s registered trademark for the medication pegfilgrastim.


                                                           1
Payment for Neulasta

Individuals receiving chemotherapy often suffer from a low white blood cell count. Physicians
inject patients with Neulasta, usually in 6-milligram (mg) doses, to stimulate bone marrow and
promote the growth of white blood cells. For Part B drugs, including Neulasta, Medicare
contractors determine the provider payment amount as the lesser of the Part B drug fee schedule
amount times the number of units billed or the claimed amount.

In 2003, CMS assigned the administration of Neulasta injections the Healthcare Common
Procedure Coding System (HCPCS) code Q4053, which defined the unit size as 1 mg. Providers
billed for six units because they usually administer the drug in 6-mg doses (generally from a
pre-filled syringe). Beginning January 1, 2004, the HCPCS code changed to J2505 and
identified a 6-mg dose as one unit.

CMS documented the new HCPCS code J2505 for Neulasta with changes to its Medicare Claims
Processing Manual, Pub. No. 100-4. On December 24, 2003, CMS issued Transmittal 54,
Change Request 3022, to Medicare contractors that defined a unit of service under HCPCS code
J2505 as “injection, pegfilgrastim 6mg.” On May 12, 2006, CMS issued Transmittal 949,
Change Request 4380, to Medicare contractors (fiscal intermediaries but not carriers) clarifying
the billing procedures for Neulasta. The change request stated that “Claims for Pegfilgrastim
J2505 [Neulasta] shall be submitted to Medicare contractors so that the units billed represent the
number of multiples of 6MG provided, not the number of MGs.” Similarly, notification of the
description of HCPCS code J2505 as one single dose of 6 mg was published three times in the
Federal Register in 2004, beginning on January 6, 2004.

TrailBlazer Health Enterprises, LLC

TrailBlazer Health Enterprises, LLC (TrailBlazer), which administers the Medicare program
under contracting arrangements with CMS, was the Medicare Part B carrier for Virginia. 4
During CYs 2004 through 2007, TrailBlazer processed and paid almost 65 million Part B claims,
of which 22,612 claims included Neulasta injections in Virginia.

In December 2005, TrailBlazer implemented a system edit that suspended all claims for Neulasta
when the provider billed for more than one unit.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments made by TrailBlazer for Neulasta
injections in Virginia were appropriate.

Scope

We reviewed payments that TrailBlazer processed and paid in Virginia for Neulasta injections
provided to Medicare patients during CYs 2004 through 2007. We limited our review of

4
    TrailBlazer headquarters is located in Dallas, Texas.


                                                            2
TrailBlazer’s internal controls to those applicable to processing and paying for Neulasta
injections because our objective did not require an understanding of all internal controls over the
submission of claims. Our review allowed us to establish reasonable assurance of the
authenticity and accuracy of the data obtained from the National Claims History file, but we did
not assess the completeness of the file. 5

We performed our fieldwork from September through November 2009. Our fieldwork included
contacting TrailBlazer, located in Dallas, Texas, and one provider in Virginia that received
payments for Neulasta injections.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Medicare laws, regulations, and guidance;

    •   used CMS’s National Claims History file to identify Part B claims for Neulasta injections
        for six or more units of service with a paid amount greater than $2,006 that were not
        reviewed in other audits;

    •   identified one claim with Neulasta injections totaling $3,304 that was provided by one
        physicians to one Medicare patient;

    •   reviewed available Common Working File data for the one claim to determine whether
        the claim had been canceled and superseded by a revised claim and whether the payment
        remained outstanding at the time of our audit;

    •   analyzed Common Working File data for canceled claims for which revised claims had
        been submitted to determine whether the provider received an overpayment for the initial
        claim;

    •   contacted the provider to determine whether the claim for Neulasta was billed correctly
        and, if not, why the claim was billed incorrectly; and

    •   coordinated our claim review, including a review of system edits and manual processing
        controls, and the calculation of the overpayment, with TrailBlazer.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




5
  When the Common Working File history was not available due to the age of the claim, we obtained a claim history
from TrailBlazer that contained comparable information.


                                                       3
                           FINDING AND RECOMMENDATIONS

Medicare payments made by TrailBlazer for Neulasta injections in Virginia were generally
appropriate. However, TrailBlazer paid one provider $3,304 for the one payment reviewed when
it should have paid $1,711, an overpayment of $1,593. (We identified this overpayment during
the audit and TrailBlazer subsequently indicated that the provider requested an offset of the
overpayment amount against a current payment.)

TrailBlazer made the overpayment because the provider incorrectly claimed excessive units of
service on one claim.

MEDICARE REQUIREMENTS

CMS’s Carriers Manual, Pub. No. 14, part 2, section 5261.1, requires that Medicare contractors
process claims accurately in accordance with Medicare program laws, regulations, and
instructions. Section 5261.3 of the manual requires Medicare contractors to develop a medical
review program that “effectively and continually analyzes data that identifies aberrancies,
emerging trends and areas of potential abuse, overutilization or inappropriate care and focusing
on areas where the trust fund is most at risk, i.e., highest volume and/or highest dollar codes.”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04, chapter 17, section 20, requires
Medicare contractors to pay for certain drugs based on the published average sales price. The
maximum allowable payment equals the lesser of the Part B drug fee schedule amount times the
number of units billed or the claimed amount. The Medicare contractor pays the provider
80 percent of the payment amount; the beneficiary pays the remaining 20 percent.

EXCESSIVE UNITS OF SERVICE

TrailBlazer overpaid $1,593 for one claim for excessive units of service incorrectly billed by one
Virginia provider. For the one claim reviewed, the provider incorrectly billed for 40 units of
service rather than 1 unit of service for 6 mg of Neulasta.

The provider knew or should have known that the claim was billed in error because it exceeded
the maximum allowable payment for a 6-mg dose of Neulasta by $1,593; however, the provider
did not identify the reason for the error. After we had identified the error, TrailBlazer indicated
that the provider submitted a revised claim for adjustment and requested an offset of the
overpayment amount against a current payment.

TrailBlazer paid the one claim for excessive units of service because it did not have edits in place
during CYs 2004 or 2005 to ensure that the units of Neulasta billed corresponded to the units
administered.

TRAILBLAZER SYSTEM EDITS

In December 2005, TrailBlazer implemented a system edit that suspended all claims for which
the provider billed for more than one unit of Neulasta.




                                                 4
In January 2007, CMS required Medicare contractors to implement units-of-service edits referred
to as “medically unlikely edits.” These edits detect and deny unlikely Medicare claims on a
prepayment basis by testing claim lines for the same beneficiary, procedure code, date of service,
and billing provider against a specified number of units of service. However, the medically
unlikely edits did not include Neulasta injections.

RECOMMENDATIONS

We recommend that TrailBlazer:

   •   verify that it has recovered the $1,593 overpayment and

   •   consider including its Neulasta edit in the “Medically Unlikely Edits.”

TRAILBLAZER COMMENTS

TrailBlazer concurred with the finding and recommendations. As a result of the audit,
TrailBlazer recovered the overpayments totaling $1,593 plus $14.94 interest on November 6,
2009. In addition, beginning July 2010, Neulasta will be subject to CMS’s “Medically Unlikely
Edits” that will deny Neulasta services when the billed quantity exceeds the maximum unit field
of the edit. TrailBlazer’s comments are included in the Appendix.




                                                5
APPENDIX
        APPENDIX: TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS


                                                                                               MEDICARE

June 15, 2010

Stephen Virbitsky
Regional Inspector General for Audit Services
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

Report Number: A-03-09-00022

Dear Mr. Virbitsky:

We received the May 3, 2010, draft report entitled “Medicare Part B Carrier Payments for
Neulasta Injections in Virginia for Calendar Years 2004 Through 2007.” In the draft report, the
OIG recommended that TrailBlazer:
    Verify we have recovered the $1,593 overpayment; and
    Consider including its Neulasta edit in the “Medically Unlikely Edits.”

Please consider the following responses to these recommendations for inclusion in the final
report:

      Recovery of Overpayments: On September 24, 2009, TrailBlazer issued a demand letter
      for the $1,593 overpayment determined during this OIG review. On November 6, 2009, the
      full amount of the overpayment plus $14.94 in interest was collected by offset. Confirmation
      of the collection of this debt was submitted to           on December 16, 2009.

      Medically Unlikely Edit (MUE): Effective with the Multi-Carrier System (MCS) July 2010
      quarterly release, Neulasta will be subject to MUE 207A. Under this new MUE, claims with
      Neulasta units exceeding the maximum unit field on the MU screen in MCS will auto deny
      with the denial reason code DA90. This MUE is at the direction of CMS.

If you have any questions regarding our response, please contact me.

Sincerely,

/s/ Melissa H. Rhoades

Melissa Halstead Rhoades
Area Director & Medicare CFO

cc:      Terry Bird, Contracting Officer Technical Rep., Southern MAC Program Mgmt. Division
         Gil R. Glover, President & Chief Operating Officer
         Scott J. Manning, Vice President, Financial Management Operations
         Kevin Bidwell, Vice President & Compliance Officer

                           TrailBlazer Health Enterprises, LLC
                             Executive Center III • 8330 LBJ Freeway • Dallas, TX 75243-1213

                                   A Medicare Administrative Contractor
Office of Inspector General Note - The deleted text has been redacted because it is personally
identifiable information.
